OFFICE OF INSPECTOR GENERAL

AUDIT OF REPORTING ON
OPERATIONAL COSTS BY
SELECTED MISSIONS AND
OFFICES IN THE BUREAU
FOR LATIN AMERICA AND
THE CARIBBEAN
AUDIT REPORT NO. 1-598-09-008-P
May 05, 2009



SAN SALVADOR, EL SALVADOR
Office of Inspector General



May 05, 2009

MEMORANDUM

TO:              See Distribution

FROM:            RIG/San Salvador, Timothy E. Cox /s/

SUBJECT:         Audit of Reporting on Operational Costs by Selected Missions in the Bureau
                 for Latin America and the Caribbean (Report No. 1-598-09-008-P)

This memorandum transmits our final report on the subject audit. Your comments to the
draft report are included in appendix II of the report. The report does not contain any
recommendations, and thus, no additional action is required of you.

I appreciate the cooperation and courtesy extended to my staff during the audit.


Distribution:   USAID/EI Salvador Director, Larry Brady
                USAID/Guatemala Director, Wayne R. Nilsestuen
                USAID/Honduras Director, William Brands
                USAID/Mexico Director, Rodger D. Garner
                USAID/Nicaragua Director, Alexander Dickie IV
                USAID/Panama Director, Littleton Tazewell
                OFDA/Costa Rica, Tim Callaghan

cc:             Acting AA/LAC, Jose Cárdenas
                M/ICFO, Robbin Burkhart




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel (503) 2501-2999 - Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

     Have selected missions in the Bureau for Latin America and the Caribbean
     correctly reported their operational costs? .................................................................. 4

Evaluation of Management Comments ......................................................................... 5

Appendix I – Scope and Methodology .......................................................................... 6

Appendix II – Management Comments ......................................................................... 8
SUMMARY OF RESULTS
USAID’s Manage to Budget Initiative was established in FY 2006 and implemented
USAID-wide in FY 2007 to increase transparency and accountability, provide incentives
to managers to control operational costs, and decentralize operating cost budgeting. In
conjunction with the Manage to Budget Initiative, the Office of Management and Budget
mandated that USAID use expanded object class codes (EOCCs) to identify the purpose of
all obligations and disbursements in the Agency’s Phoenix accounting system starting in
June 2006 (page 2).

As part of the FY 2009 annual audit plan, RIG/San Salvador conducted this audit to
determine whether selected missions and offices in the Bureau for Latin America and the
Caribbean correctly reported their operational costs (page 3). 1

The seven selected missions and offices in the Bureau for Latin America and the
Caribbean (LAC) covered by our detailed examination reported their operating costs
correctly (page 4).

Our audit included two separate lines of inquiry. The first line of inquiry was an
analytical review that covered all 19 LAC field missions and offices during FY 2008 and
disclosed an error rate of 3.2 percent in reporting operational costs. The second line of
inquiry was a more detailed examination of supporting documentation for a sample of
143 transactions recorded by seven selected LAC missions. This examination disclosed
an error rate of 2.1 percent. Because we established a materiality threshold of 5 percent
for the audit, we considered these errors to be immaterial. However, we communicated
certain minor matters identified during the audit to the Deputy Chief Financial Officer
through a separate management letter (page 4).

In response to our draft report, the LAC missions were pleased that the audit found that
the missions were correctly reporting operating costs. Mission comments in their
entirety are presented in appendix II.




1
    The seven missions and offices selected for detailed examination during the audit were El
    Salvador, Guatemala, Honduras, Mexico, Nicaragua, OFDA/Cost Rica, and Panama.


                                                                                           1
BACKGROUND
USAID’s Manage to Budget (MTB) initiative was established in FY 2006 and
implemented USAID-wide in FY 2007 to: increase transparency and accountability,
provide incentives to managers to control operational costs, and decentralize operating
cost budgeting. Originally, the MTB initiative was aimed at reducing operational costs.
However, with the advent of the Development Leadership Initiative, which will increase
operational costs as it aims to double the size of USAID’s foreign service workforce by
FY 2012, the focus has shifted to improving transparency and accountability for
operational expenses.

The MTB initiative established a target for operational costs (including both program and
operating expense-funded costs) of 12 percent (later changed to 10 percent) of program
costs for most operating units. Note that the distinction made here between operational
costs and program costs is not the same as the distinction between USAID’s operating
expense appropriations and its program appropriations. Rather, for purposes of MTB,
operational costs are defined as costs that benefit USAID, and program costs are
defined as costs that benefit host countries – regardless of the source appropriation.

In parallel with the MTB, OMB mandated that USAID use seven-digit expanded object
class codes (EOCCs) to identify the purpose of all obligations and disbursements in the
Agency’s Phoenix accounting system starting in June 2006. 2 USAID deployed the EOCC
changes during FY 2006 on a trial basis and committed to OMB that all of the Agency’s
obligations and disbursements would be reported under the seven-digit EOCC structure
beginning in FY 2007. The EOCC structure includes five major classifications:

•    Series 10 – Personnel Compensation and Benefits (248 sub-codes)

•    Series 20 – Services, Support, and Supplies (123 sub-codes)

•    Series 30 – Property and Equipment (17 sub-codes)

•    Series 40 – Grants, Subsidies, and Fixed Charges (Development Interventions) (28
     sub-codes)

•    Series 90 – Other (Confidential Interventions) (1 sub-code)

Under this new coding system, technical offices (requestors) are to determine the proper
EOCC code at the obligation stage. Accountants are to verify correct coding for obligations
and voucher examiners enter EOCC codes for disbursements.

Our audit included an analytical review of 98,870 transactions (obligations and
disbursements) during FY 2008 for the 16 missions, 2 regional programs, and the Office
of Foreign Disaster Assistance (OFDA)/Costa Rica in the Bureau for Latin America and
the Caribbean, as well as a more detailed examination of a sample of 143 transactions
recorded by seven selected missions in the LAC region. 3

2
    Prior to June 2006, USAID used less detailed six-digit object class codes.
3
    The missions and offices covered by the analytical review included Bolivia, Brazil, Colombia,


                                                                                               2
AUDIT OBJECTIVE
As part of its FY 2009 annual audit plan, the Regional Inspector General/San Salvador
conducted this audit to answer the following question: Have selected missions and
offices in the Bureau for Latin America and the Caribbean correctly reported their
operational costs?

Please refer to appendix I for the audit’s scope and methodology.




  Dominican Republic, Ecuador, El Salvador, Guatemala, Guyana, Haiti, Honduras, Jamaica,
  Mexico, Nicaragua, Panama, Paraguay, Peru, the regional programs in the Caribbean and
  Central America, and OFDA/Costa Rica. The seven selected missions covered by the detailed
  examination included El Salvador, Guatemala, Honduras, Mexico, Nicaragua, OFDA/Cost
  Rica, and Panama. The latter seven missions and offices are all serviced by the regional
  accounting station in El Salvador.


                                                                                         3
AUDIT FINDINGS
The seven selected missions and offices in the Bureau for Latin America and the
Caribbean (LAC) that were covered by our detailed examination reported their operating
costs correctly.

The audit included two main lines of inquiry. The first line of inquiry was an analytical
review of all 98,870 obligation and disbursement transactions recorded by all 19 LAC
field missions and offices during FY 2008. The analytical review consisted of sorting and
searching data from the Phoenix accounting system, using a spreadsheet program, to
look for errors in assigning expanded object class codes (EOCCs). Through this
analytical review, we identified 3,210 errors out of a population of 98,870 transactions,
for an error rate of 3.2 percent. Because we used a materiality threshold of 5 percent,
we considered these errors to be immaterial. The errors were of two types:

•   Operational costs charged to the wrong operational EOCC (3 percent). Most of
    these errors occurred when the National Finance Center in Washington, D.C.
    miscoded foreign service employee compensation as general service employee
    compensation (2.5 percent). Other errors occurred when missions incorrectly
    charged performance bonuses and cash awards (code 1150557) to foreign service
    national base pay (code 1130007), federal taxes (code 1210307) to foreign service
    national base pay (code 1130007), and travel to the United States (code 2100700) to
    travel to foreign areas (code 2100701).

•   Operational costs charged to program EOCCs (0.2 percent). Examples of these
    errors include International Cooperative Administrative Support Services (ICASS)
    costs (code 2530100), office utilities (code 2330200), and evaluations to support
    management decisions (2510300) incorrectly charged to program EOCCs (40
    series).

The second line of inquiry consisted of a more detailed examination of supporting
documents (mainly contracts, grants, and invoices) for a random sample of 143
transactions in seven selected LAC missions. Through this examination, we identified 3
errors for an error rate of 2.1 percent. The errors encountered included charging
employer’s contribution to U.S. personal services contract (PSC) taxes (code 1210308)
to U.S. PSC base pay (code 1130008), and charging living quarter’s allowance (code
1211053) to cost of living allowance (code 1210753).

We communicated certain minor matters identified during the audit to the Deputy Chief
Financial Officer through a separate management letter dated March 31, 2009.




                                                                                       4
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, the LAC missions were pleased that the audit found that
the missions were correctly reporting operating costs. Mission comments in their
entirety are presented in appendix II.




                                                                                      5
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

The purpose of the audit was to determine if selected missions and offices within the
Bureau for Latin America and the Caribbean (LAC) reported operational costs accurately
through the correct application of the agency’s new expanded object class codes
(EOCCs).

The audit included two lines of inquiry:

•   An analytical review of reporting of operational costs by all 19 missions and offices in
    the LAC Bureau. The purpose of this review was to become familiar with the data,
    assess accuracy of reporting by sorting and searching 98,870 obligation and
    disbursement transactions, assess audit risk, and decide how many missions and
    offices should be included in our detailed examination.

•   A detailed examination of supporting documentation for a random sample of 143
    obligation and disbursement transactions recorded by seven missions and offices in
    the LAC region.

The missions and offices covered by the analytical review included Bolivia, Brazil,
Colombia, Dominican Republic, Ecuador, El Salvador, Guatemala, Guyana, Haiti,
Honduras, Jamaica, Mexico, Nicaragua, Panama, Paraguay, Peru, the regional
programs in the Caribbean and Central America, and Office of Disaster Assistance
(OFDA)/Costa Rica. The seven selected missions and offices covered by the detailed
examination included El Salvador, Guatemala, Honduras, Mexico, Nicaragua,
OFDA/Cost Rica, and Panama.

In planning and performing the audit, we assessed internal controls related to the
application of EOCCs to identify the purpose of financial transactions. The internal
controls identified included accountants’ review of EOCC codes assigned by program
officials, USAID’s list of EOCC codes, which includes descriptions of the types of
transactions included in each code, USAID’s Automated Directives System Chapter 601,
“Funding Source Policy,” and guidance and directives issued by the Office of the Chief
Financial Officer and other offices on the Management Bureau.

We also discussed the Manage to Budget initiative and application of EOCC codes with
financial management officials in USAID/Washington and selected missions in the LAC
Bureau.

The audit was conducted in San Salvador, El Salvador during January and February of


                                                                                          6
                                                                              APPENDIX I

2009. Our audit focused on obligation and disbursement transactions recorded in fiscal
year 2008.

Methodology
We began our audit with an analytical review of 98,870 obligation and disbursement
transactions recorded in FY 2008 by all 19 LAC Bureau missions and offices. The
analytical review consisted of using a spreadsheet program to sort and search data from
the Phoenix accounting system to look for errors in assigning EOCC codes.

We also conducted a detailed examination of supporting documentation for a random
sample of 143 obligation and disbursement transactions out of a population of 39,202
transactions recorded by seven selected missions and offices.          The sampling
methodology provides 95 percent confidence that the sample attributes reflect
population attributes with precision of plus or minus 3 percent.        Through the
examination, we determined whether transactions occurred, whether they were assigned
the correct EOCC, and whether EOCC codes assigned by program personnel were
reviewed by accountants.

In answering the audit objective, we used a materiality threshold of 5 percent for both the
analytical review and the detailed examination.




                                                                                         7
                                                                              APPENDIX II



MANAGEMENT COMMENTS
MEMORANDUM

From:      USAID/El Salvador Director, Larry Brady /s/ 4/16/09
           USAID/Guatemala Director, Wayne R. Nilsestuen /s/ 4/23/09
           USAID/Honduras Director, William Brands /s/ 4/23/09
           USAID/Mexico Director, Rodger D. Garner /s/ 4/23/09
           USAID/Nicaragua Director, Alexander Dickie IV /s/ 4/16/09
           USAID/Panama Director, Littleton Tazewell /s/ 4/17/09
           OFDA/Costa Rica, Tim Callahan /s/ 4/29/09

To:        RIG/SS, Timothy E. Cox

Subject:   Audit of Reporting on Operational Costs by Selected Missions in the Bureau
           for Latin America and the Caribbean

Date:      April 30, 2009

Thank you for the opportunity to comment on the subject draft audit report.

We are pleased that you found our missions are correctly reporting operating costs and
have no recommendations for action. We have reviewed the report and have no
comments. We understand that certain minor findings pertaining to compensation
transactions recorded by the National Finance Center in Washington, D.C., mentioned in
the report, will be communicated to the Deputy Chief Financial Officer through a
separate management letter.

We appreciate the professional and cooperative manner of your staff during this audit.




                                                                                         8
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
